Peace Corps
Office of Inspector General




    Peace Corps/Mexico office in Queretaro




                                     Source: CIA World Factbook




    Final Audit Report:
    Peace Corps/Mexico
             IG-11-01-A

                                                         February 2011
                                    EXECUTIVE SUMMARY

In general, Peace Corps/Mexico’s (PC/Mexico’s) financial and administrative operations were
functioning effectively and complied with agency policies and federal regulations. However, we
identified several financial and administrative operations not in compliance with agency policy
and guidance. Some of the more important findings are summarized below:

•   The country director had not established the required responsibilities in accordance with
    Peace Corps Manual section (MS) 734 and did not properly separate duties between medical
    supply receipt, custody, and recordkeeping.

•   The post did not have an adequate process to oversee grant projects and ensure
    documentation was complete and accurate.

•   The administrative officer did not maintain documentation to support the FY 2009 Volunteer
    living allowance surveys and did not perform market basket surveys to validate the results of
    the Volunteer living allowance surveys.

•   The administrative officer did not conduct settling in allowance surveys in FY 2008 and
    2009.

The post operated with a small number of staff to support approximately 35 Volunteers. With
limited personnel the post struggled to implement sufficient separation of duties, and staff often
had various responsibilities. However, plans for significant growth over the next three years will
require additional staff. The post has proactively considered the impact of the growth on the
financial and administrative functions to ensure proper separation of duties, provide the most
efficient use of personnel, and support the work of Volunteers. During the audit, we identified
several functions that require attention for the country director (CD) to manage the growth
efficiently.

Our report contains 27 recommendations, which, if implemented, should strengthen internal
controls and correct the deficiencies detailed in the accompanying report. Management
concurred with all 27 recommendations and began implementing corrective actions. As a
result, we closed 23 recommendations and await documentation supporting corrective actions
for the remaining 4 recommendations. See Appendices C and D for management’s response
and OIG comments.




Final Audit Report: Peace Corps/Mexico                                                           i
                                                                  Table of Contents

EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
     A. MEDICAL SUPPLIES ............................................................................................................................................ 2

     B. GRANTS ............................................................................................................................................................. 4

     C. BILLS OF COLLECTION ....................................................................................................................................... 5

     D. INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES ............................................................. 6

     E. PERSONNEL FILES .............................................................................................................................................. 7

     F. LEASES ............................................................................................................................................................... 8

     G. VOLUNTEER SUPPORT........................................................................................................................................ 9

     H. PROPERTY ........................................................................................................................................................ 11

     I. IMPREST FUND .................................................................................................................................................. 12

     J. GROWTH CONSIDERATIONS .............................................................................................................................. 12


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE.....................................................15

LIST OF RECOMMENDATIONS .......................................................................................................16

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................19

APPENDIX B: LIST OF ACRONYMS ................................................................................................20

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................21

APPENDIX D: OIG COMMENTS.....................................................................................................32

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................33
                                         BACKGROUND
The Office of Inspector General conducted an audit of PC/Mexico (hereafter referred to as “the
post”) June 20 – July 3, 2010. The post had not been previously audited.

The post’s initiative originated in 2001 when former Mexican President Vicente Fox and former
U.S. President George W. Bush signed the Partnership for Prosperity, an agreement that
envisioned several initiatives to strengthen cooperation between the two countries. The Peace
Corps entered Mexico in 2004, but did not sign a bilateral country agreement. Instead, Peace
Corps signed agreements with Mexico’s National Council for Science and Technology in
November 2003 and a partnership agreement with the Ministry of the Environment and Natural
Resources in June 2006. In accordance with these agreements, the post places skilled Volunteers
in working relationships with partner organizations. During the audit, the Peace Corps and the
government of Mexico were in discussions about signing a bilateral country agreement.

Our overall objective in auditing the post was to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                         AUDIT RESULTS
In general, the post’s financial and administrative operations were functioning effectively and
complied with agency policies and federal regulations. However, we identified several financial
and administrative operations not in compliance with agency policy and guidance, including:

    •   lack of proper separation of duties over medical supplies;
    •   inadequate oversight of Peace Corps partnership and small project assistance grants;
    •   inefficient and insufficient process for bills of collection;
    •   lack of Volunteer settling-in surveys and market basket surveys;
    •   inadequate documentation to support Volunteer living allowances; and,
    •   approximately $1,398 a year in costs for International Cooperative Administrative
        Support Services which were not required by the Peace Corps.




Final Audit Report: Peace Corps/Mexico                                                           1
A . M E DI C A L S UPPL I E S

The post had not established the required medical supply responsibilities in accordance with
MS 734 and did not properly separate duties between medical supply receipt, custody, and
recordkeeping.

On November 26, 2008, Peace Corps updated MS 734 to improve controls over medical
supplies. The updated guidance requires overseas posts to assign an acceptance point clerk to
receive the medical supplies and a separate staff member to maintain the medical supply
inventory. This guidance helps separate the roles of receipt, custody, and issuance of medical
supplies to ensure one individual does not have too much control over the process. MS 734.3.4
states:

         The Medical Supply Inventory Control Clerk (MSIC Clerk) is designated by the country director.
         The MSIC Clerk maintains the Medical Inventory Control Log, which houses the inventory status
         of all medical supplies that are specially designated or controlled substances purchased, received,
         and stocked at post. The MSIC Clerk must be a person from outside the Medical Unit staff.

         The Acceptance Point Clerk (APC) is responsible for receiving medical supplies at post and
         coordinating their initial inventory and transfer to the Medical Unit. The APC works with both the
         MSIC Clerk and the PCMO [Peace Corps Medical Officer] to ensure that medical supplies are
         delivered and inventoried. The APC must not be an individual assigned to the Medical Unit staff,
         and cannot serve as the MSIC Clerk. Further, the APC may not perform the quarterly inventory of
         medical supplies.

According to MS 734.3.5.3:

         The MSIC Clerk must maintain an accurate and complete set of inventory records for all medical
         supply items that are specially designated or controlled substances (Medical Inventory Control
         Log). . . .

         The PCMO must use form PC-734C to record the item and quantity dispensed, to whom it was
         dispensed, and when dispensed. . . .

         Copies of the PC-734C forms and disposal records should be sent to the MSIC Clerk at least
         monthly. Before providing copies of the form PC-734C to the MSIC Clerk or anyone other than
         Medical staff, the section of the form containing personally identifiable information must be
         removed and destroyed.

Medical Supply Inventory Control Clerk. The post did not fully understand the roles and
responsibilities described in MS 734. As a result, the CD had not appointed an MSIC clerk.
Instead, a medical assistant was still primarily responsible for the medical supply acquisition,
storage, and inventory counts. However, the Peace Corps medical officer (PCMO) attended a
PCMO conference in June 2010 and was instructed on the various roles. The PCMO now has a
better understanding of the policy.




Final Audit Report: Peace Corps/Mexico                                                                         2
Acceptance Point Clerk. Although the CD had not officially appointed an APC, the cashier
reviewed receipt and acceptance of all medical supplies with the PCMO. However, when the
cashier was not present the medical assistant still accepted the medical supplies. Further, the
post sometimes used imprest funds to procure medical supplies locally. Therefore, the cashier
could purchase and receive the medical supplies. To ensure adequate separation of duties the
purchasing and receiving functions should be separated.

In addition, the post was not using the required medical supply forms contained in MS 734.3.4.
The PCMO would tell the medical assistant when supplies were dispensed and the medical
assistant would update the spreadsheet. Although we found that the spreadsheet contained the
dispensing information, without a formal dispensing form, the PCMO could not ensure
information was communicated and recorded correctly. In accordance with MS 734 the form for
dispensing must be provided to the MSIC clerk for all specially designated medical supplies and
controlled substances. The official medical supply forms ensure an effective and documented
flow of information between medical staff and the MSIC clerk. Further, as the post considers
contracting for additional medical staff the need to implement formalized processes and
documentation becomes critical to coordinating the medical supplies process.

Quarterly Inventory. The medical assistant conducted monthly inventories of all medical
supplies with the PCMO. According to MS 734.3.5.3, “The CD should appoint a member of
staff from outside the Medical Unit, who is not the MSIC Clerk or APC, to conduct the
inventory.” At least quarterly an individual not assigned to the medical office and not fulfilling
another medical supply role must conduct a physical inventory and provide the results to the
MSIC clerk to reconcile the records.

It is important that the post implement the revised Peace Corps policy related to medical supplies
and in a timely manner. Adequate separation of duties is critical to effective internal control and
minimizes the risks associated with fraud, waste, and abuse.

                 We recommend:

                 1. That the country director designate a staff member who is outside the
                    medical unit to be the medical supply inventory control clerk.

                 2. That the medical supply inventory control clerk maintain accurate and
                    complete medical supply inventory records including receipting
                    documents provided by the acceptance point clerk, forms recording
                    dispensing, disposal documentation, and reconciliations of the results
                    from the quarterly physical inventory counts.

                 3. That the country director designate a staff member who is outside the
                    medical unit and not the medical supply inventory control clerk to be
                    an acceptance point clerk and immediately begin receiving, inspecting,
                    and accepting medical supplies to the Medical Unit and assume all
                    other duties as described in Peace Corps Manual section 734.




Final Audit Report: Peace Corps/Mexico                                                               3
                 4. That the Medical Unit provide the medical supply inventory control
                    clerk with the official form recording the dispensing of all medical
                    supplies, without the Volunteer information, for all specially
                    designated medical supplies or controlled substances at least monthly.

                 5. That the country director designate a staff member outside of the
                    Medical Unit, who is not the medical supply inventory control clerk or
                    acceptance point clerk, to perform the required quarterly physical
                    inventory of medical supplies.


B . G R A NT S

The post did not have an adequate process to monitor the Small Project Assistance and Peace
Corps Partnership Program projects and ensure project funds were properly managed.

The Small Project Assistance (SPA) and the Peace Corps Partnership Program (PCPP) are two
grant programs in which Volunteers participate. Both programs require extensive documentation
for requesting, obtaining, and documenting the grant project. Although the procedures are
different, both require Volunteers to work with the Peace Corps post staff to receive approval for
the project and review the completed project and total costs.

MS 720 states that the PCPP coordinator will monitor the status of the project and coordinate
with Volunteers during implementation. It also requires Volunteers to submit a final report,
including receipts and an accounting for funds spent, to the coordinator for review.

In FY 2009, the post did not have a coordinator to review and maintain documentation and
ensure information was accurate and complete. Instead, the program managers coordinated with
Volunteers but did not always review the supporting documentation, including receipts for funds
expended. As a result, the files for SPA and PCPP projects were inconsistent and disorganized.
During our audit we determined that:

    •   SPA project proposals were not kept in the respective files
    •   Four of the six completed SPA projects from FY 2009 did not have completion reports
        and one did not have an accurate completion form
    •   Two of the six SPA projects were significantly over budget
    •   Two of the four sampled PCPPs did not have completion reports.

Another control mechanism to ensure Volunteers close projects before leaving Peace Corps is
the close of service (COS) survey. The post required the program managers to sign the COS
survey indicating whether the SPA and PCPP projects were complete.

In October 2009, the CD appointed the safety and security coordinator (SSC) as the coordinator
for the SPA and PCPP projects. The newly appointed coordinator developed a spreadsheet to
track projects and ensure documentation is complete before Volunteers’ COS. If used properly,
this spreadsheet will serve as a control mechanism to track projects and identify incomplete


Final Audit Report: Peace Corps/Mexico                                                           4
documentation. The SSC should also sign the COS checklist and verify whether SPA and PCPP
projects are complete before the Volunteers complete their service.

                  We recommend:

                  6. That the Peace Corps Partnership Program coordinator use the newly-
                     developed tracking spreadsheet for grants to monitor the project status and
                     ensure all completion reports are prepared and signed and sent to
                     headquarters.

                  7. That the Peace Corps Partnership Program coordinator sign the Volunteers’
                     close of service checklists after verifying that Volunteers have submitted a
                     completion report or transferred the projects and that any excess funds have
                     been collected.

                  8. That the Peace Corps Partnership Program and Small Project Assistance
                     coordinator inform program managers of the status of outstanding projects and
                     necessary documentation during the monthly meetings.


C . B I L L S OF C OL L E C T I ON

The billing officer did not review and maintain all of the necessary documentation to support
bills of collection.

Review for Amounts Owed. The billing officer is responsible for determining and billing any
amounts owed to the Peace Corps based on supporting documentation. To recoup for the
personal use of vehicles it is important that the billing officer reviews the vehicles logs and
identifies any unofficial use. PCM 527.5.4.4 states, “The staff member responsible for billing
authorized, non-official use must review, initial, and date the Weekly Vehicle Usage Logs
weekly.” Although the billing officer reviewed telephone logs and the host country
contributions, she did not review vehicle use logs weekly to identify personal use of vehicles.
The post did not permit personal use of vehicles except for the limited uses described in the PCM
for U.S. direct hire employees. As a result, the billing officer indicated that she did not need to
review the logs. However, without reviewing the vehicles logs the billing officer could not
ensure she identified and billed for every instance when personal use of vehicles occurred.

Maintaining Supporting Documentation. The billing officer did not maintain the official bill
of collection files. Instead, the cashier maintained them. In addition, the cashier would not
always provide a copy of the general receipt to the billing officer once the staff or Volunteer
paid. The Overseas Financial Management Handbook (OFMH) sections 7.2.1 and 7.3.1 require
the collection officer to provide a copy of the general receipt to the billing officer, who maintains
a copy in the billing file. This process ensures that the billing officer knows that the cashier
collected the amount owed and there is no longer a need to follow-up on repayment.

During our review the post took immediate corrective action on other issues regarding the billing


Final Audit Report: Peace Corps/Mexico                                                              5
process. The CD implemented a minimum dollar threshold for collections, in accordance with
OFMH section 7.1.1, to ensure the cost did not exceed the benefit for collecting small sums of
money for personal use of telephones. The cashier posted a copy of the general receipt outside
of her cashier window as required by OFMH section 7.3 so that “debtors know what the form
looks like.”

                  We recommend:

                  9. That the billing officer obtain and review the vehicle use logs
                     on a weekly basis to identify personal use of vehicles and bill
                     the staff for amounts owed.

                  10.    That the billing officer maintain the bill of collection files
                         including all documentation to support billings.

                  11.    That the cashier provide a copy of the general receipt to the
                         billing officer to ensure the billing officer has a complete and
                         accurate record of payments.


D. I NT E R NA T I ONA L C OOPE R A T I V E A DM I NI ST R A T I V E S UPPOR T S E R V I C E S

The post subscribed to services it did not use through the Department of State’s International
Cooperative Administrative Support Services (ICASS).

Through ICASS, the Department of State offers a range of administrative support services to
Peace Corps and other agencies with overseas support requirements. Peace

Corps overseas posts are responsible for participating on ICASS committees, subscribing to only
the required services, and reviewing their ICASS invoices for accuracy.

Unnecessary Costs. The post required cashiering services through the U.S. Embassy when it
began in September 2004 and had not contracted for a cashier. In addition, the post initially
subscribed to the U.S. direct hire personnel services to manage human resources for the U.S.
staff. However, it quickly hired a cashier, and Peace Corps headquarters provides support for all
U.S. direct hires. The post requested removal from the cashiering and U.S. direct hire personnel
services at the beginning of FY 2008 but the U.S. Embassy did not remove them and Peace
Corps continued to pay for the services through fiscal years 2008, 2009, and 2010. In FY 2010
post paid $1,398 for these unnecessary costs. 1

Waiver for Subscriptions. The post did not have the proper waiver from the Office of the Chief
Financial Officer to subscribe to the services that were not allowed according to the Peace Corps
policy. According to MS 708.4:

1
  In response to the preliminary report the post justified the additional ICASS costs and obtained the appropriate
waiver from the Office of the Chief Financial Officer. Accordingly, these costs were no longer reported as funds put
to better use.


Final Audit Report: Peace Corps/Mexico                                                                            6
         Under exceptional circumstances, a Country Director may identify a need for [ICASS] services which are
         not on the list of authorized sub functions. In such a case, the Country Director should list the specific
         services needed and send it with a written justification to the Director of Financial Management (M/FM) to
         request a waiver from the restriction.

This guidance ensures that posts only subscribe to necessary services and are not overcharged.
The post did not have a waiver on file for the cashiering, U.S. direct hire personnel support, or
the vouchering services. If the post had requested a waiver for the additional services, then
Peace Corps headquarters may have provided additional support to the post in requesting the
U.S. Embassy remove the services and the post could have put the funds to better use.

                  We recommend:

                  12.    That the country director obtain a waiver from the Office of
                         the Chief Financial Officer for the services that are not
                         explicitly authorized in Peace Corps Manual section 708 or
                         discontinue the services.

                  13.    That the country director continue to request removal of the
                         unnecessary services from the manager of the International
                         Cooperative Administrative Support Services in Mexico.

                  14.    That the Office of the Chief Financial Officer review
                         PC/Mexico’s International Cooperative Administrative
                         Support Services costs to ensure the post removed
                         unnecessary services and obtained authorization for any
                         additional services.


E . P E R SONNE L F I L E S

Personal services contractor (PSC) files were not always complete; some lacked evidence of
competition, security certifications, and intelligence background certifications.

MS 743 requires that posts compete PSC positions and accept offers from at least three
potentially qualified candidates. The manual section also requires PSCs complete the
intelligence background certification and that the post obtain security certifications from the U.S.
Embassy regional security officer. Foreign service nationals must also receive a security
certification from the regional security officer in compliance with the Foreign Affairs Manual
chapter 3.

Based on a review all 16 PSC files at post, we determined the following documentation was
missing:

    •    Lack of evidence of competition for five PSC positions.
    •    A current security certification for two PSCs.


Final Audit Report: Peace Corps/Mexico                                                                            7
    •    A copy of the final security certification for two foreign service nationals.
    •    Post also did not obtain an interim security check for a temporary PSC. The temporary
         PSC no longer works at the post.

We discussed the missing documentation with the Director of Management and Operations 2
(DMO) and obtained an explanation and clarification for some of the information. According to
the DMO the post competed for the five PSC positions but failed to retain the documentation.
During our audit, the DMO also obtained the missing security certifications for the two PSCs and
the two foreign service nationals from the regional security officer.

In addition, the country director did not request headquarters perform the required investigation
on a transferred U.S. PSC before he started work. U.S. PSCs must undergo an investigation by
Peace Corps headquarters. MS 744 states, “The Country Director, or Washington office
requesting the contract, shall initiate the investigative request.” During the audit the post
requested that headquarters conduct the investigation for the U.S. PSC.

The completeness of PSC files is essential in order to ensure and document compliance with
Peace Corps and federal requirements. The competing of PSC positions and documenting the
process in the PSC files helps ensure full and open competition and transparent hiring practices.
The completed intelligence background information certification form identifies individuals who
have prior connections with intelligence activities through employment, related work, or family
relations and may be ineligible for a personal services contract. Lastly, security certifications are
necessary to help ensure trusted personnel work at the Peace Corps and that Peace Corps
personnel and resources are protected.

                 We recommend:

                 15.    That the administrative officer ensure evidence of
                        competition, consistent with the requirements of Peace Corps
                        Manual 743, is included in the personal services contractor
                        files.

                 16.    That the administrative officer include copies of the security
                        certification and intelligence background certification for the
                        transferred personal services contractor in the personal
                        services contractor files.


F . L E A SE S

The post did not fully document competition and other required information for lease
contracts.

The Federal Acquisition Regulation contains policies and procedures used to promote and
2
 On January 20, 2011, the position of administrative officer was renamed the Director of Management and
Operations. This report was updated to reflect the current title.


Final Audit Report: Peace Corps/Mexico                                                                    8
provide for full and open competition, which includes the requirement that solicitations be in
writing for contract in excess of $30,000. Federal Acquisition Regulation requirements are
incorporated into MSs 732 and 733. MS 733.4.2 states, “To the maximum extent practicable,
leases shall be awarded on a competitive basis.” MS 732.6 requires bids be in writing for
purchases exceeding $10,000. Requiring written solicitations helps ensure fair contracting
practices and the most economical acquisitions.

During our review of the three lease files at the post we determined that two of the files at the
post did not contain evidence of competition and lacked other important information. The third
lease was for less than $10,000 and didn’t require written documentation of competition. In
addition, one residential lease did not include an approval from the regional director to exceed
$20,000 a year, which is required by OFMH section 30. Further, two of the leases did not list the
square footage of the property, which headquarters requests in MS 733, to fulfill General
Services Administration and Office of Management and Budget requirements.

During the audit the post was competing for an additional property and was careful to follow the
procedures for competition and approval. For previous leases, post personnel stated that the
properties were competed, but there was no documentation to verify this information. The post
must fully document its market surveys, reviews of various properties, and selection process for
rental property to ensure compliance with the MS 733 and Federal Acquisition Regulation.

                 We recommend:

                 17.    That the administrative officer maintain complete lease files
                        including documentation showing the competition of leases,
                        the actual or estimated property square footage, and all
                        required approvals from management.


G . V OL UNT E E R S UPPOR T

1. The post did not maintain supporting documentation for the FY 2009 Volunteer living
allowances surveys and results.

MS 221.5.7 states:

        Posts shall conduct surveys to justify and determine changes to the amount of the living
        allowance.

        At least annually, the post shall conduct a living allowance survey of the Volunteers….

        The data from the returned surveys should be aggregated and analyzed by the staff.

According to the DMO, the post conducted living allowance surveys and analyzed the results.
We confirmed with Volunteers that they had received surveys. However, the post did not retain
the Volunteer submissions and its analysis of whether or not the Volunteer allowance was
adequate. Without complete documentation, we could not assess the reasonableness of the FY


Final Audit Report: Peace Corps/Mexico                                                             9
2009 Volunteer allowances. At the time of our visit, the post was conducting the FY 2010
Volunteer allowance surveys and was able to provide some of the surveys.


                 We recommend:

                 18.    That the administrative officer maintain support for settling
                        in surveys, living allowance surveys, analyses of the surveys,
                        and the conclusions in a centralized and the administrative
                        files.


2. The post did not conduct market basket surveys to determine whether or not Volunteer
allowances were adequate.

MS 221.5.7.2 states:

        To verify living allowance survey submissions, a Market Basket Survey shall be conducted by
        staff.

        The Market Basket Survey is to be used as a guide to validate the cost data on the living allowance
        survey submissions. Large differences in prices between the market basket items and the
        volunteer allowance submissions should be reviewed by PC/Mexico during the analysis of the
        surveys and adjusted, if necessary.

The DMO informed us that the post had not conducted a market basket survey in the last two
years. Market basket surveys are required by Peace Corps policy and are essential for
determining whether Volunteer allowances are reasonable. Without the market basket survey,
the post must rely exclusively on data submitted by Volunteers.

                 We recommend:

                 19.    That the administrative officer conduct a market basket
                        survey in conjunction with each living allowance survey and
                        compare the results to determine if volunteer allowances are
                        reasonable. In accordance with Peace Corps policy, the
                        administrative officer must analyze significant differences
                        and make any necessary adjustments in living allowances.


3. The post had not conducted settling in allowance surveys in fiscal years 2009 and 2010.

MS 221.4.2 states that “The survey process requires Volunteers to complete the Settling-in
Allowance Volunteer Survey within three months after receipt of the allowance.” The previous
DMO did not recall conducting a settling in allowance survey for the new groups of Volunteers
in FYs 2009 and 2010. Settling in surveys are necessary to determine whether Volunteers
receive adequate allowances to purchase furnishings and other items needed when Volunteers



Final Audit Report: Peace Corps/Mexico                                                                        10
arrive at their sites. It is essential the post maintain complete files containing the Volunteer
settling-in surveys, living allowance surveys, the analysis of the surveys, and the results.

                    We recommend:

                    20.   That the administrative officer conduct a settling in
                          allowance survey and analyze the results for each group of
                          new Volunteers.


H . P R OPE R T Y

1. The post did not ensure separation of duties between recording property and conducting
verification of inventory existence.

PCM 511.5.6 states, “Individuals other than the Property Officer should check database property
reports against physical inventory of property to confirm the existence of property listed on the
inventory record.” To ensure proper separation of duties the record-keeper should not conduct
the verification of the property. At post, the property officer was responsible for conducting the
physical inventory and for maintaining the official inventory database of property. Separating
these responsibilities would help prevent fraud and promote property control.

                    We recommend:

                    21.   That the administrative officer assign an individual other than
                          the property officer to conduct the physical inventory of post
                          property.


2. The general services officer did not adequately secure the vehicle and office keys.

According to PCM 511.3.4, “The Property Officer (PO), appointed by the PAH, is responsible
for carrying out functions to safeguard and control all U. S. government property assigned to his
or her office.”

The post kept the vehicle and office keys on a desk in the front of the office. The keys were not
properly safeguarded and could easily be lost or stolen. Proper safeguarding includes storing the
keys in a controlled area and limiting access.

                    We recommend:

                    22.   That the property officer secure the vehicle and office keys in
                          a controlled area with limited access.




Final Audit Report: Peace Corps/Mexico                                                             11
I . I M PR E ST F UND

The cashier issued frequent interim advances and did not always list recipient.

MS 760.13.3 states, “Interim advances, which should be tightly controlled, may be made by the
cashier to staff who have been authorized by the Country Director or his/her designee to receive
cash from the cashier to make cash purchases.”

OFMH section 13.18.2 provides the additional requirements:

    •   This interim cash advance must be supported by a copy of the authorized purchase
        document and liquidated (accounted for) within three working days.

    •   The cashier should liquidate the advances within three working days after issuance by
        obtaining copies of original receipts or other confirmation of use from the individual(s) to
        whom the funds were advanced. Unused cash must be returned to the cashier, with the
        receipts documenting the purchase.

    •   It is the responsibility of the cashier to monitor the clearance of interim advances and to
        notify the DMO if advances are not cleared within three days for direct follow-up action.

The cashier frequently listed outstanding cash advances as “daily expenses” in the cash
reconciliation worksheet. The cashier said she did not always document the name of the
individual because only two staff members frequently received advances for purchases.
However, by not properly identifying individuals with outstanding advances, the cashier and
staff could circumvent controls established to ensure proper imprest fund management.
Therefore, it is important for the cashier to identify staff with advances and review the list to
ensure that staff settles the advances in a timely manner.

                 We recommend:

                 23.    That the cashier list each individual with an interim advance
                        in the cash reconciliation worksheet.


J . G R OW T H C ONSI DE R A T I ONS

The post was proactively planning for growth and should continue to assess the impact on its
various financial and administrative functions.

The post’s strategic plan for FYs 2011-2013 proposed increasing annual trainee inputs gradually
from 40 trainees up to 80 by 2012, contingent upon additional individual agency agreements or a
national letter of agreement. The plan also stated:

        PC/Mexico addresses opportunities in our growth strategy that reflect medium volunteer growth as defined
        by [Inter-America and Pacific] region with the potential for significant growth if an overall country
        agreement, or additional individual agency agreements, can be reached with the Government of Mexico in
        the near future (prior to Op Plan submission to region).


Final Audit Report: Peace Corps/Mexico                                                                        12
The post was proactive in considering the affect of growth in several areas of its operation.
During the audit the impact of growth in the following administrative areas was discussed.

Staff Policies. The post was developing a staff handbook. A handbook is an essential document
for managing the post and providing staff with guidance on implementing Peace Corps policies
and conducting day-to-day operations.

Financial and Administrative Staff. The post was in the process of hiring a financial assistant
and reassigning the part-time administrative assistant as a full-time medical assistant. By
properly assigning the financial functions to the financial assistant, the post will help provide a
better separation of duties and permit staff members to focus on their primary responsibilities.
For example, the cashier maintained non-cashier vouchers and billing files and the safety and
security coordinator facilitated Volunteer grant proposals and documentation, which are
responsibilities often performed by a financial assistant.

Medical Support. The post identified a need to contract for a part-time PCMO. According to
Peace Corps Medical Office technical guide 185, In-Country Contracting of Peace Corps
Medical Officers, the Office of Medical Services (OMS) should be contacted early in the process
so it can help the post determine future needs and provide better support throughout the
recruiting and hiring process.

Facilities Management. The post was considering where to place additional staff within the
limited office space. The decision requires consideration of long term growth and office
workflow. For example, the size and layout of the medical office was identified by the OMS as a
concern because of the lack of privacy and only one examination room that also serves as the
medical officer’s office. The post will need to address OMS’s concerns and consider how new
staff will be integrated into the workspace.

Vehicle Management. The post was authorized to have four vehicles but only had three.
During the audit we identified several reimbursement vouchers for mileage associated with the
use of personal vehicles for official purposes. In addition, the post did not have a designated
vehicle for safety and medical use. The current vehicles are from 2004 and 2005 with over
50,000 miles. MS 527.3.1 states, “Peace Corps vehicles are normally scheduled for replacement
after five years or 50,000-miles.” Therefore, the post should consider the need for additional
vehicles while also managing its aging vehicle fleet.

Volunteer Recruiting. The post was challenged by the level of expertise required for
Volunteers to work with its highly technical partner organizations. Volunteer skills requested by
the post and partner organizations have caused the Peace Corps Office of Volunteer Recruitment
and Placement, in coordination with the post staff, to develop a model that attempts to supply the
post’s demand. The Office of Volunteer Recruitment and Selection prepared a timeline of events
to address this concern and has coordinated its implementation with the CD. If the process and
timeline proves successful it should become a standard operating policy. We also encourage the
post to continue to streamline the process and to share any lessons learned and best practices
with regional management and Office of Global Operations for future consideration.




Final Audit Report: Peace Corps/Mexico                                                            13
In summary, the post was exploring new opportunities for growth, which will bring about new
challenges. The CD was also working to enhance the post’s operations in preparation for these

opportunities. The post can best assess and work to fulfill its future needs by partnering with
headquarters offices responsible for the various components of the post’s operations.

                 We recommend:

                 24.    That the country director continue to develop and implement
                        a post staff handbook.

                 25.    That the country director determine the post’s future needs
                        for medical support, facility space, and staff in coordination
                        with the Office of Medical Services.

                 26.    That the country director, in coordination with the Office of
                        Management’s post logistics support, updates the vehicle
                        fleet plan to addresses any need for additional vehicles while
                        considering the age of its current vehicle fleet.

                 27.    That the country director, in conjunction with the Office of
                        Volunteer Recruitment and Selection, formalize the process
                        and timeline for placing skilled Volunteers in PC/Mexico,
                        and share the process, its lessons learned and best practices,
                        with regional management and Office of Global Operations.




Final Audit Report: Peace Corps/Mexico                                                            14
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We did not identify questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps/Mexico                                                           15
                              LIST OF RECOMMENDATIONS

We recommend:

     1.    That the country director designate a staff member who is outside the medical
           unit to be the medical supply inventory control clerk.

     2.    That the medical supply inventory control clerk maintain accurate and complete
           medical supply inventory records including receipting documents provided by the
           acceptance point clerk, forms recording dispensing, disposal documentation, and
           reconciliations of the results from the quarterly physical inventory counts.

     3.    That the country director designate a staff member who is outside of the medical unit
           and is not the medical supply inventory control clerk, to be an acceptance point clerk
           and immediately begin receiving, inspecting, and accepting medical supplies to the
           Medical Unit and assume all other duties as described in Peace Corps Manual section
           734.

     4.    That the Medical Unit provide the medical supply inventory control clerk with the
           official form recording the dispensing of all medical supplies, without the Volunteer
           information, for all specially designated medical supplies or controlled substances at
           least monthly.

     5.    That the country director designate a staff member outside of the Medical Unit, who is
           not the medical supply inventory control clerk or acceptance point clerk, to perform the
           required quarterly physical inventory of medical supplies.

     6.    That the Peace Corps Partnership Program coordinator use the newly-developed
           tracking spreadsheet for grants to monitor the project status and ensure all completion
           reports are prepared and signed and sent to headquarters.

     7.    That the Peace Corps Partnership Program coordinator sign the Volunteers’ close of
           service checklists after verifying that Volunteers have submitted a completion report or
           transferred the projects and that any excess funds have been collected.

     8.    That the Peace Corps Partnership Program and Small Project Assistance coordinator
           inform program managers of the status of outstanding projects and necessary
           documentation during the monthly meetings.

     9.    That the billing officer obtain and review the vehicle use logs on a weekly basis to
           identify personal use of vehicles and bill the staff for amounts owed.

     10. That the billing officer maintain the bill of collection files including all documentation
         to support billings.



Final Audit Report: Peace Corps/Mexico                                                              16
     11. That the cashier provide a copy of the general receipt to the billing officer to ensure the
         billing officer has a complete and accurate record of payments.

     12. That the country director obtain a waiver from the Office of the Chief Financial Officer
         for the services that are not explicitly authorized in Peace Corps Manual section 708
         or discontinue the services.

     13. That the country director continue to request removal of the unnecessary services from
         the manager of the International Cooperative Administrative Support Services in
         Mexico.

     14. That the Office of the Chief Financial Officer review PC/Mexico’s International
         Cooperative Administrative Support Services costs to ensure the post removed
         unnecessary services and obtained authorization for any additional services.

     15. That the administrative officer ensure evidence of competition, consistent with the
         requirements of Peace Corps Manual 743, is included in the personal services
         contractor files.

     16. That the administrative officer include copies of the security certification and
         intelligence background certification for the transferred personal services contractor in
         the personal services contractor files.

     17. That the administrative officer maintain complete lease files including documentation
         showing the competition of leases, the actual or estimated property square footage, and
         all required approvals from management.

     18. That the administrative officer maintain support for settling in surveys, living
         allowance surveys, analyses of the surveys, and the conclusions in a centralized and the
         administrative files.

     19. That the administrative officer conduct a market basket survey in conjunction with each
         living allowance survey and compare the results to determine if volunteer allowances
         are reasonable. In accordance with Peace Corps policy, the administrative officer must
         analyze significant differences and make any necessary adjustments in living
         allowances.

     20. That the administrative officer conduct a settling in allowance survey and analyze the
         results for each group of new Volunteers.

     21. That the administrative officer assign an individual other than the property officer to
         conduct the physical inventory of post property.

     22. That the property officer secure the vehicle and office keys in a controlled area with
         limited access.




Final Audit Report: Peace Corps/Mexico                                                             17
     23. That the cashier list each individual with an interim advance in the cash reconciliation
         worksheet.

     24. That the country director continue to develop and implement a post staff handbook.

     25. That the country director determine the post’s future needs for medical support, facility
         space, and staff in coordination with the Office of Medical Services.

     26. That the country director, in coordination with the Office of Management’s post
         logistics support, update the vehicle fleet plan to addresses any need for additional
         vehicles while considering the age of its current vehicle fleet.

     27. That the country director, in conjunction with the Office of Volunteer Recruitment and
         Selection, formalize the process and timeline for placing skilled Volunteers in
         PC/Mexico, and share the process, its lessons learned and best practices, with regional
         management and Office of Global Operations.




Final Audit Report: Peace Corps/Mexico                                                           18
APPENDIX A

                OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. Our audits are conducted in
accordance with the government auditing standards prescribed by the Comptroller General of the
United States.

The audit of PC/Mexico covered fiscal years 2009 and 2010 through July 3, 2010. While at the
post, we interviewed key staff including the CD, the DMO, programming staff, the SSC,
administrative support staff, and the PCMO. We also interviewed Volunteers to obtain their
views on the effectiveness of the post’s administrative and financial systems in supporting them.
At the end of the audit, we briefed the CD, DMO, and PCMO. At headquarters, we conducted a
general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did not test
the system’s controls, we believe the information generated by the system and used by us was
sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, U.S. Department of State Foreign Affairs
Manual, and current Peace Corps initiatives and policies.
APPENDIX B

                    LIST OF ACRONYMS

APC          Acceptance Point Clerk
CD           Country Director
COS          Close of Service
DMO          Director of Management and Operations
ICASS        International Cooperative Administrative Support Services
MS           Peace Corps Manual Section
MSIC         Medical Supply Inventory Control
OFMH         Overseas Financial Management Handbook
OMS          Office of Medical Services
PCMO         Peace Corps Medical Officer
PCPP         Peace Corps Partnership Program
PSC          Personal Services Contractor
PO           Property Officer
SPA          Small Project Assistance
SSC          Safety and Security Coordinator
APPENDIX C


             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
APPENDIX D


                                   OIG COMMENTS

Management concurred with all 27 recommendations. We closed 23 recommendations. Four
recommendations remain open pending confirmation from the chief compliance officer that the
following has been received.

       To close recommendations 18, 19, and 20 please provide copies of results and examples
       of the support for the April 30, 2011 settling in surveys and market basket surveys.

       To close recommendation 24 please provide a copy of the final post staff handbook.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX E

          AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION   Bradley Grubb, Assistant Inspector General for Audit,
                   performed the audit of PC/Mexico.




                   Bradley Grubb, CPA
                   Assistant Inspector General for Audit


OIG CONTACT        If you wish to comment on the quality or usefulness of
                   this report to help us strengthen our product, please e-
                   mail Bradley Grubb, Assistant Inspector General for
                   Audit, at bgrubb@peacecorps.gov, or call him at (202)
                   692-2914.
            REPORT FRAUD, WASTE, ABUSE,
               AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and wasteful
practices, fraud, abuse, and mismanagement related to Peace Corps
operations domestically or abroad. You can report allegations to us in
several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                    800.233.5874
               Washington Metro Area:                202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
